No. 19-1177
IN THE

Supreme Court of the United States
AMERICAN INSTITUTE FOR INTERNATIONAL STEEL, INC., SIM-TEX, LP, and KURT ORBAN
PARTNERS, LLC,

Petitioners,

v.
UNITED STATES and MARK A. MORGAN, ACTING COMMISSIONER, UNITED STATES
CUSTOMS and BORDER PROTECTION,

Respondents.
CERTIFICATE OF COMPLIANCE
I, Alan B. Morrison, counsel of record for the petitioners American Institute
for International Steel, Sim-Tex, LP, and Kurt Orban Partners, LLC, do hereby
certify, pursuant to Rule 33.1(h), that their reply brief in support of the petition for
a writ of certiorari contains no more than 2,157 words, including footnotes,
excluding the portions set forth in Rule 33.1(d).

_/s/ Alan B. Morrison
May 28, 2020

Alan B. Morrison

